Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  MEDICARE MANAGED CARE
  Goals of National Marketing Guide




                   JUNE GIBBS BROWN
                    Inspector General

                      FEBRUARY 2000
                      OEI-03-98-00270
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

Isabelle Buonocore, Project Leader                   Stuart Wright, Program Specialist
Erika Q. Lang, Lead Program Analyst                  Tricia Davis, Program Specialist
Lauren McNulty, Program Analyst




 To obtain copies of this report, please call the Philadelphia Regional Office at (215) 861-4551.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                      EXECUTIVE SUMMARY

PURPOSE

       This report describes how well the Medicare Managed Care National Marketing Guide
       met its established goals in its first year of implementation.

BACKGROUND

       The Health Care Financing Administration (HCFA) has authority to establish how
       managed care health plans with Medicare contracts provide information to beneficiaries.
       The health plans are required to submit marketing materials to HCFA regional offices for
       review and approval before distribution. Marketing materials include pre-enrollment
       materials (e.g., advertisements and sales brochures) and member materials (e.g.,
       membership rules and notices of change in benefits). The HCFA regional staff keep track
       of their marketing-material reviews.

       In November 1997, the Medicare Managed Care National Marketing Guide was issued
       as an operational tool for health plans and HCFA reviewers. It includes Federal marketing
       requirements and instructions regarding the review process. The goals of this National
       Marketing Guide are to (1) expedite the review process, (2) reduce re-submissions of
       material prior to approval, (3) ensure uniform review across the nation, and, most
       importantly, (4) provide Medicare beneficiaries with current, accurate, consumer friendly
       material that will help them make informed health-care choices. The following
       operational elements of the National Marketing Guide were designed to help HCFA
       reviewers and health plans meet the four goals: (1) lead regional offices, (2) model
       member material, (3) checklists for member materials, (4) language chart, (5) Use and File
       System (this system allows health plans that consistently meet Federal requirements to
       distribute sales materials without prior approval), and (6) Product Consistency Team.

       We surveyed all HCFA staff responsible for reviewing marketing materials and
       representatives from 150 managed care plans. We also obtained data from HCFA regional
       offices that had systems to track marketing-material reviews.


FINDINGS

Goals of the National Marketing Guide Were Not Completely Met in the First Year
of Implementation



   Goals of National Marketing Guide           1                                     OEI-03-98-00270
However, Some Aspects of the Review Process Improved Due to the National
Marketing Guide. Marketing guidelines were clearer, and creating and reviewing marketing
materials became easier.

Of the Operational Elements, the Use and File System and Checklists for Member
Materials Were Not Well Understood or Applied Uniformly

Marketing-Material Reviews Were Not Tracked Consistently Across HCFA
Regions

Both HCFA Reviewers and Managed Care Plan Representatives Felt
Improvements Are Needed. They felt operational elements need clarification, model member
materials should be more sensitive to beneficiary needs, and there should be training on how to
use the National Marketing Guide.


RECOMMENDATIONS

        Our findings from this report and our review of marketing materials for a companion
        report, Medicare Managed Care: 1998 Marketing Materials (OEI-03-98-00271), provide
        evidence that the Medicare Managed Care National Marketing Guide, while improving
        some aspects of the marketing-material review process, was not very successful at meeting
        its most important goal. That goal is to provide Medicare beneficiaries with accurate and
        consumer friendly marketing materials. Inaccurate and confusing materials may affect
        beneficiaries’ ability to make informed health-care choices.

        We recommend that HCFA:

      <	 update the National Marketing Guide. The National Marketing Guide should further
         clarify which information is specifically prohibited or required in marketing materials.
         The National Marketing Guide should provide model materials that are accurate and
         easy to read. It should clarify policy and operational instructions regarding the lead and
         local regional office responsibilities, the Use and File System (which allows plans to
         distribute sales material without prior approval), and the health plans’ use of checklists
         for member materials. It should also ensure that checklists for member materials contain
         all the required information.

      <	 standardize and mandate use of member materials. The HCFA should work toward
         standardizing as many types of member materials as possible. Managed care plans
         should be required to use these materials when communicating with their enrolled
         Medicare beneficiaries.



    Goals of National Marketing Guide            2                                     OEI-03-98-00270
    <	 develop standard review instruments. These review instruments should be used by
       HCFA staff in determining if marketing materials (both pre-enrollment and member)
       contain all required information and do not contain prohibited information.

    <	 establish a quality control system. The HCFA should periodically review a nationwide
       sample of previously approved marketing materials (both pre-enrollment and member) to
       determine if they meet Federal marketing guidelines.

    < track marketing-material reviews consistently and uniformly across all regions.

    <	 conduct meetings to review Federal marketing requirements with managed care
       plans that continually submit materials not in compliance with the requirements.

    <	 provide training on the use of the National Marketing Guide for HCFA reviewers
       and managed care plans.


AGENCY COMMENTS

      The Health Care Financing Administration (HCFA) reviewed our companion reports and
      concurred with our recommendations. The agency is updating the National Marketing
      Guide and plans to promote better understanding of the Use and File System. As of 2000,
      contracting health plans must use a standardized Summary of Benefits. In the future,
      beneficiary notifications such as the Evidence of Coverage will be standardized, and their
      mandatory use will be phased in. In 2001, the agency will have a new and comprehensive
      instrument for collecting benefit data and reviewing marketing materials. In addition, the
      Product Consistency Team will meet monthly and uncover and correct inconsistencies in
      operational or policy interpretations of standardized materials. As to quality control, the
      agency will verify that all final versions of beneficiary notices are the same as versions
      HCFA approved, and will review samples of printed marketing materials. The HCFA is
      also taking steps to address the tracking of marketing material reviews, monitoring of
      contractor performance, and training of staff. Appendix C contains the full comments.

      We appreciate the comprehensiveness of HCFA’s comments. We believe the agency’s
      stated efforts can result in comparable and understandable materials which beneficiaries
      need to make informed health-care choices. We are hopeful that the updated National
      Marketing Guide will include clarification of lead and local regional office responsibilities,
      and clarification as to whether health plans must submit checklists along with the member
      materials they submit for HCFA’s review. With regard to the Product Consistency Team,
      the past team was not fully able to realize the objectives stated in the agency comments
      (uncovering and correcting inconsistencies; updating the National Marketing Guide as
      needed). We are hopeful that the new team has the tools and authority needed to
      accomplish these important objectives.

  Goals of National Marketing Guide             3                                       OEI-03-98-00270
                          TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Goals of National Marketing Guide not completely met . . . . . . . . . . . . . . . . . . . . . . . . 11


          Improvements due to National Marketing Guide . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Certain operational elements not understood or applied uniformly . . . . . . . . . . . . . . . . 14


          Marketing-material reviews not tracked consistently . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Improvements still needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDICES


          A: Opinions of Plan Representatives: Estimates and Confidence Intervals . . . . . . . . . . . 22


          B: Opinions of How Well Goals of National Marketing Guide Were Met . . . . . . . . . . . 31


          C: Comments from the Health Care Financing Administration . . . . . . . . . . . . . . . . . . . 33





     Goals of National Marketing Guide                          4                                                OEI-03-98-00270
                                  INTRODUCTION

PURPOSE

       This report describes how well the Medicare Managed Care National Marketing Guide
       met its established goals in its first year of implementation.


BACKGROUND

Marketing Regulations

       Title XVIII of the Social Security Act (Part D, Section 1876[c][3][C]) provided the
       Health Care Financing Administration (HCFA) authority to establish how managed care
       health plans with Medicare contracts provide information to beneficiaries. Regulations
       which list prohibited marketing activities are in Title 42 of the Code of Federal
       Regulations (Section 422.80). Prohibited are activities that (1) discriminate against
       beneficiaries with poor health, (2) mislead or confuse beneficiaries, or (3) misrepresent the
       health plan or HCFA. These same regulations also require managed care plans to submit
       all marketing materials to HCFA for review and approval at least 45 days before planned
       distribution.

Marketing Materials

       Marketing materials include a wide range of materials used to communicate with
       beneficiaries before and after enrollment in a managed care plan. Pre-enrollment materials
       are essentially sales materials and include newspaper, radio, and television advertisements;
       summaries of benefits; application forms; telemarketing scripts; and slide presentations.
       Post-enrollment materials, more commonly called member materials, include letters
       confirming enrollment and disenrollment; notices about a change in providers, benefits, or
       premiums; letters with claim information; lists of covered and non-covered services; co­
       payment schedules; and subscriber agreements. Subscriber agreements contain member
       rights as well as member and plan responsibilities. Some subscriber agreements also list
       covered and non-covered services.

       Medicare beneficiaries are exposed to marketing materials through different media,
       including literature, billboards, radio, television, informational meetings, and the Internet.
       Regardless of the medium used, managed care plans must get approval from HCFA prior
       to distributing the information.




   Goals of National Marketing Guide              5                                      OEI-03-98-00270
National Marketing Guide

       The Medicare Managed Care National Marketing Guide, hereinafter called the National
       Marketing Guide, became effective November 17, 1997. Its main users are managed care
       plan staff who create marketing materials and HCFA staff who review the materials. Prior
       to the National Marketing Guide’s implementation, the main reference for Federal
       marketing guidelines was the Health Maintenance Organization/Competitive Medical
       Plan Manual, issued March 1991.

       The National Marketing Guide incorporates Federal marketing requirements, represents
       HCFA's official position on marketing policy, and contains operational instructions. It
       explains requirements for different types of materials and media. Some instructions are
       voluntary, and others are mandatory. The HCFA policy is that certain information must
       be conveyed to Medicare beneficiaries. However, format and the addition of other types
       of information are left to the discretion of the health plans. The National Marketing Guide
       is meant to address concerns about what had been the slow pace of HCFA's review
       process; the inconsistent interpretation of Federal marketing guidelines by HCFA
       reviewers; and the misleading or incorrect statements in marketing materials that were
       reaching Medicare beneficiaries even after going through the review process.

       The goals of the National Marketing Guide, as listed in the preamble, are as follows:

                 1. expedite the review process;
                 2. 	conserve resources by avoiding multiple submissions and reviews of a
                     piece prior to final approval;
                 3. ensure uniform marketing review across the nation; and, most importantly,
                 4. 	provide Medicare beneficiaries with current, accurate, consumer friendly,
                     managed care marketing information that will assist them in making
                     informed health-care choices.

Operational Elements

       Below are operational elements of the National Marketing Guide which have the potential
       to help HCFA and managed care plans meet the four goals mentioned above.

       Lead regional offices. A HCFA lead regional office reviews materials designed for use in
       more than one region. Prior to the National Marketing Guide, every HCFA regional
       office reviewed all materials intended for use in its geographic area. Managed care plans
       with service areas crossing regional boundaries complained that HCFA regional offices
       interpreted marketing guidelines differently, and what was approved in one region was
       denied in another region. This led to revisions and re-submissions of materials for HCFA's
       review. Now, managed care plans serving more than one region are assigned a lead



   Goals of National Marketing Guide              6                                    OEI-03-98-00270
    regional office to review their cross-regional materials. However, materials created for
    use in only one region are reviewed by the HCFA office in that region.

    Model member materials. Member materials are pieces used by managed care plans to
    communicate with enrolled Medicare beneficiaries regarding their status in the plan, their
    benefits, rules and regulations of the plan, and other matters. The HCFA created model
    materials covering many of these topics (e.g., model subscriber agreement, model
    disenrollment letter) and included them in the National Marketing Guide. Model pieces
    with content that does not change substantially from year to year, such as a model
    disenrollment letter, may be distributed by managed care plans without HCFA’s prior
    review and approval.

    Checklists. The HCFA created checklists for several types of member materials and
    included them in the National Marketing Guide. Managed care plans must submit these
    checklists with the corresponding member materials to the reviewer, showing that all
    required information is included.

    Language chart. The National Marketing Guide contains a chart of marketing language
    that managed care plans "Must Use/Can't Use/Can Use" when talking about certain
    concepts/subjects in sales materials. Use of the language chart can protect beneficiaries
    from misleading statements in advertising. Moreover, the chart standardizes language for
    certain concepts, making the creation and review of sales materials easier. Use of the
    standard language can also help beneficiaries become familiar with the concepts.

    Use and File System. This operational element of the National Marketing Guide is a
    way to expedite the review process and reward managed care plans that demonstrate they
    can be relied upon to meet Federal marketing requirements. Plans that meet the Use and
    File criteria may distribute sales materials without prior review and approval from HCFA,
    but they must send copies of those materials to HCFA to be kept on file. The criteria are:
    (1) the plan has had a Medicare contract for at least 18 months; (2) only sales materials
    are eligible; (3) at least 10 pieces of sales material were submitted for review in a calendar
    quarter; and (4) 95 percent of the quarter’s sales materials were error free.

    Product Consistency Team. This Team is made up of HCFA central office and regional
    staff. It is responsible for (1) internally assuring consistency in the application of
    marketing guidelines, and (2) drafting updates to the National Marketing Guide. The
    work of the Product Consistency Team can lead to more uniform reviews of marketing
    materials, expediting the review process, and even reducing re-submissions of marketing
    materials–three of four goals of the National Marketing Guide.




Goals of National Marketing Guide             7                                       OEI-03-98-00270
Future of the National Marketing Guide

       Updates to the National Marketing Guide are disseminated in the form of operational
       policy letters. In Operational Policy Letter #79, issued February 4, 1999, HCFA stated
       that in the future, the National Marketing Guide will become a chapter of the Medicare +
       Choice Manual. Until that time, interim changes to the National Marketing Guide will
       continue to be made through operational policy letters, and they are available on the
       Internet at HCFA’s managed care home page.

The HCFA Reviewers

       Staff in HCFA regional offices are responsible for various aspects of overseeing contracts
       between Medicare and managed care plans, including review of marketing materials and
       keeping track of the reviews. In 1998, a total of 96 staff members were conducting
       reviews. According to the review staff, the review of marketing materials is only one of
       their duties, but for some staff it is the most time-consuming. In 1998, the median number
       of hours per week spent on reviews was 10 hours, with some reviewers spending as many
       as 35 hours.

       Reviewers must determine whether marketing materials meet regulatory requirements,
       accurately reflect the health plan's Medicare contract, and accurately describe benefits.
       Consequently, the review of materials can be extremely complex to perform, requiring
       attention to numerous details. In the last quarter of calendar year 1998, most of the same
       staff responsible for conducting reviews were also responsible for implementing the new
       Medicare + Choice program. The Medicare + Choice program increases the types of
       health plans HCFA staff must oversee.

Recent Developments in the Review Program

       In August 1999, HCFA issued an operational policy letter which contains new and
       updated models of enrollment and disenrollment letters. The HCFA also created a
       standard form called the Summary of Benefits. All plans are required to use this form in
       fiscal year 2000 when describing their benefits to beneficiaries.

       Currently, HCFA is conducting a pilot study to determine the effectiveness of having an
       outside contractor review marketing materials. The HCFA has also contracted an
       evaluation of the Medicare managed care marketing regulatory program to determine the
       program’s strengths and weaknesses.

Studies by the Office of Inspector General

       Medicare managed care has been the focus of many Office of Inspector General (OIG)
       studies. We have covered such topics as HCFA oversight of managed care plans,


   Goals of National Marketing Guide            8                                    OEI-03-98-00270
       grievance and appeal issues, physician and beneficiary perspectives, beneficiary
       satisfaction, enrollment and service access problems, and the use of disenrollment rates as
       performance indicators.

       We have also addressed managed care marketing within the last three years. In
       Medicare's Oversight of Managed Care (OEI-01-96-00191), we found that while HCFA
       had increased the number of staff responsible for managed care oversight, some staff
       lacked managed care experience. The HCFA staff needed certain skills to evaluate various
       aspects of health plan operations, including marketing. We recommended that HCFA
       develop a more comprehensive training program for staff who oversee managed care
       plans. In Medicare HMO Appeal and Grievance Processes (OEI-07-94-00280), we
       found that many health maintenance organizations had marketing materials and operating
       procedures with incorrect or incomplete information on appeal and grievance processes.
       We recommended that HCFA (1) work with the health plans to standardize appeal and
       grievance language in marketing materials and operating procedures, and (2) take a more
       active approach in monitoring the plans.

       As a companion to this report, we are issuing, Medicare Managed Care: 1998 Marketing
       Materials (OEI-03- 00271). We found that few marketing materials submitted by
       managed care plans and approved by HCFA in 1998 were in full compliance with Federal
       guidelines, and nearly half the materials were not consumer friendly. The findings from
       the companion reports were used to develop the recommendations contained in both
       reports.


SCOPE AND METHODOLOGY

       Our purpose in this study was to determine how well the National Marketing Guide met
       its goals in the first year (November 1997 through November 1998). We collected data
       between September 1998 and March 1999 and completed analysis in June 1999.

Survey of HCFA Reviewers and Managed Care Plan Representatives

       In December 1998, we sent self-administered questionnaires to all 96 HCFA regional staff
       who were responsible for reviewing and approving managed care marketing materials and
       who had been employed longer than 4 months. Ninety percent (86 of 96) responded.

       We also sent self-administered questionnaires to a simple random sample of managed care
       health plan representatives responsible for risk-based Medicare contracts in 1998. Of the
       346 risk-based contracts in 1998, we sampled 150. Eighty-seven percent of sampled plan
       representatives (131 of 150) responded. (Appendix A contains the confidence intervals
       related to their opinions.) These respondents informed us their plans had been submitting



   Goals of National Marketing Guide            9                                     OEI-03-98-00270
       marketing materials to HCFA for as little as 10 months to as long as 16 years; 3 years was
       the median.

       All respondents provided demographic information and opinions about how well the
       National Marketing Guide worked and what improvements are needed. A few questions
       in the survey required a finite response (e.g., demographic questions), but most had a
       range of choices to express opinions. Two open-ended questions addressed (1)
       improvements needed and (2) anything else the respondent wanted to say about the
       National Marketing Guide.

Collection of Tracking Information From HCFA Regional Offices

       We asked each HCFA regional office for data from their tracking of marketing-material
       reviews so that we could determine the volume of reviews, review time-frames, review
       outcomes (approvals and denials), number of re-submitted materials, and number of plans
       in the Use and File System. We obtained 1997 and 1998 data from regions that kept
       tracking systems so that we could compare data before and after implementation of the
       National Marketing Guide.
                                        ____________

       This study was conducted in accordance with the Quality Standards for Inspections issued
       by the President’s Council on Integrity and Efficiency.




   Goals of National Marketing Guide           10                                    OEI-03-98-00270
                                       FINDINGS

Goals of the National Marketing Guide were not completely
met
       Less than half of the managed care plan representatives and HCFA reviewers felt the
       National Marketing Guide worked very well or well toward meeting three of its goals:
       reducing material re-submissions, ensuring uniform reviews across the nation, and
       providing beneficiaries with useful information. While 64 percent of the HCFA reviewers
       felt the National Marketing Guide worked very well or well at the goal to expedite the
       review process, the majority of managed care plan representatives felt it was not as
       successful at meeting that goal. The HCFA reviewers were generally more positive than
       the managed care plan representatives about the effectiveness of the National Marketing
       Guide. (Appendix B contains HCFA reviewer and plan representative opinions of how
       well each goal was met.)

Goal 1 - Expedite the review process

       As stated above, the HCFA reviewers felt more strongly than plan representatives that, as
       a whole, the National Marketing Guide worked very well or well at expediting the review
       process. In fact, reviewers felt the National Marketing Guide was most successful at
       achieving this goal. Both respondent groups felt the language chart was the most
       instrumental of the operational elements in meeting this goal. Seventy-two percent of
       reviewers and 60 percent of plan representatives said the language chart worked very well
       or well. Reviewers felt more strongly than plan representatives that model member
       materials expedited the review process. A large percentage of both plan representatives
       (74 percent) and HCFA reviewers (44 percent) did not know how well the Use and File
       System met this goal. On the negative side, 19 percent of HCFA reviewers felt the lead
       regional office concept did not work well at expediting the review process.

Goal 2 - Reduce re-submissions of marketing material

       Managed care plan representatives felt the National Marketing Guide made the most
       substantial improvement in the goal to reduce material re-submissions. Thirty-nine
       percent of the plan representatives felt it worked very well or well. As with the first goal,
       the highest percentage of managed care plan representatives (66 percent) thought the
       language chart was the most successful in reaching this goal. The next highest percentage
       of plan representatives (41 percent) felt the same way about model member materials.
       The HCFA reviewers agreed that the same two operational elements worked best at
       reducing re-submissions, but the percentage of reviewers was lower (44 and 43


   Goals of National Marketing Guide            11                                      OEI-03-98-00270
       percent respectively for the language chart and model materials). However, roughly 20
       percent of HCFA reviewers felt the lead regional office concept and checklists for member
       materials did not work well.

Goal 3 - Ensure uniform review across the nation

       Thirty-nine percent of HCFA reviewers felt the National Marketing Guide worked very
       well or well at ensuring uniform review across the nation. A fourth of the respondents
       from both groups felt it worked less than well, and 18 percent of the plan representatives
       felt it had not achieved this goal at all. The language chart was the operational element
       that was the most successful at reaching this goal. Twenty-five percent of plan
       representatives said the lead regional offices worked very well or well. Thirty-two percent
       of HCFA reviewers felt the Product Consistency Team worked very well or well.

Goal 4 - Provide Medicare beneficiaries with useful information

       Thirty-eight percent of HCFA reviewers compared to 24 percent of plan representatives
       felt the National Marketing Guide worked very well or well at providing beneficiaries
       with useful information (i.e., materials that will help them make informed health-care
       choices). Nineteen percent of plan representatives felt the National Marketing Guide was
       not successful in meeting this goal. Of the operational elements, the language chart
       worked best according to 45 percent of HCFA reviewers and 42 percent of plan
       representatives. While a majority of plan representatives felt the model member materials
       worked less than well at meeting this goal, 34 percent of HCFA reviewers felt model
       materials worked well.



However, some aspects of the review process improved due
to the National Marketing Guide
       The majority of respondents agreed the review process had improved since the National
       Marketing Guide was issued. More than three-quarters of both respondent groups felt
       marketing guidelines were clearer; 82 percent of plan representatives felt creating
       materials became easier; and 68 percent of HCFA reviewers thought reviewing materials
       became easier. Eighty-three percent of HCFA reviewers also felt they became more
       consistent in language they allowed and did not allow in materials.

       Overall, HCFA reviewers felt more strongly than managed care plan representatives that
       the review process had improved and that marketing materials were more accurate and
       useful for beneficiaries. For example, 81 percent of reviewers compared to 59 percent of
       plan representatives said final marketing materials contain more accurate information.



   Goals of National Marketing Guide           12                                    OEI-03-98-00270
    Table 1 below shows whether managed care plan representatives and HCFA reviewers
    agreed or disagreed with statements about the National Marketing Guide’s early impact.


    Table 1. Respondent Opinions Concerning National Marketing Guide’s Early Impact

                                                                                     OPINIONS
             STATEMENTS OF                    Type of                Strongly Somewhat Somewhat Strongly Don’t
              EARLY IMPACT                  Respondent         n*     agree     agree   disagree disagree know
                                         Managed care plan     127    12%      69%       16%       0%      3%
    Marketing guidelines are clearer.    HCFA                  83     19%      58%        7%       5%      11%
    Lead regional offices improved       Managed care plan     125    22%      30%        7%       3%      37%
    review process for health plans with
    cross-regional materials.            HCFA                  83     21%      33%       13%       7%      27%

    Creating/reviewing marketing         Managed care plan     127    18%      64%       13%       1%      4%
    materials is easier.                 HCFA                  83     25%      43%       15%       5%      12%
    Submitting/receiving marketing       Managed care plan     128    12%      58%       19%       6%      6%
    materials is easier.                 HCFA                  80     14%      41%       21%       5%      19%
    HCFA reviews marketing materials Managed care plan         127    17%      37%       21%      16%      9%
    in shorter time frames.          HCFA                      82     17%      37%       22%      11%      13%
    HCFA comments on reviewed            Managed care plan     127     6%      39%       32%       8%      16%
    marketing materials are more
    objective.                           HCFA                  82     18%      46%       16%       4%      16%
    HCFA reviewers are more                Managed care plan   128    12%      38%       21%      17%      12%
    consistent in interpreting guidelines. HCFA                79     35%      44%        8%       0%      13%
    HCFA reviewers are more              Managed care plan     128     9%      48%       20%      16%      7%
    consistent in language they allow.   HCFA                  82     39%      44%        6%       1%      10%
    HCFA reviewers are more            Managed care plan       128     9%      61%       18%       6%      6%
    consistent in language they do not
    allow.                             HCFA                    82     39%      44%        5%       2%      10%

    Final marketing materials contain    Managed care plan     126    10%      49%       31%       0%      10%
    more accurate information.           HCFA                  82     27%      54%        5%       5%      10%
    Final marketing materials are more Managed care plan       126     4%      26%       41%      20%      9%
    consumer friendly.                 HCFA                    81     16%      51%       16%       6%      11%
    Final marketing materials are more Managed care plan       127     4%      31%       39%      13%      13%
    likely to help Medicare beneficiaries
    make informed health-care choices. HCFA                    82     17%      45%       16%       6%      16%
    Source: OIG survey, conducted December 1998
    n = number of respondents answering survey question




Goals of National Marketing Guide                      13                                         OEI-03-98-00270
Certain operational elements were not well understood or
implemented uniformly
Use and File System

       We found that some plan representatives and HCFA reviewers did not know, or had
       misconceptions, about the Use and File System. At the time of our survey, only 12
       percent of plans (16 of 131) had the Use and File privilege. Plan representatives and
       HCFA reviewers had different conceptions about the criteria for gaining the Use and File
       privilege. Plans must be in the Medicare program at least 18 months to be considered for
       Use and File privilege, and only sales materials are eligible. The plan must submit at least
       10 pieces of sales material in a calendar quarter, and 95 percent of the quarter’s sales
       materials must be error free. While plans with the Use and File privilege may distribute
       sales materials without prior approval, they must send HCFA copies of the materials to be
       kept on file. Table 2 below shows the percentage of plan representatives aware of each
       criterion, and the percentage of HCFA reviewers who considered each criterion when
       determining whether plans should receive the Use and File privilege.

       Table 2. Awareness and Consideration of Use and File Criteria

                                                                    Percentage of      Percentage of
                                                                    Plans Aware of    Reviewers who
           Criteria that Must Be Met for Use and File Privilege        Criterion     Consider Criterion
       Plan must be in Medicare program for at least 18 months           76%               51%
       Only sales materials are eligible                                 70%               35%
       At least 10 pieces must be submitted in a calendar quarter        58%               44%
       95% of calendar quarter’s sales materials must be approved        87%               64%
       Source: OIG survey, conducted December 1998

       In order for HCFA to identify plans for the Use and File privilege, the reviews of plans’
       marketing material must be tracked. However, 25 percent of HCFA reviewers said their
       regional office did not track reviews for this purpose, and 17 percent said they did not
       know if their office required tracking. In many regions, reviewers did not agree on
       whether their office required tracking for Use and File purposes. Fifty percent of managed
       care plan representatives thought they must ask HCFA to track them, 25 percent thought
       HCFA tracks automatically, and 25 percent did not know how tracking is initiated. Some
       plan representatives commented that the Use and File System is not available in their
       region, and this was echoed in comments of some reviewers. The lack of awareness and
       inconsistent implementation of the Use and File System may explain why very high
       percentages of respondents did not know how well the Use and File System worked at
       meeting the National Marketing Guide’s goals (see Appendix B).


   Goals of National Marketing Guide                  14                                   OEI-03-98-00270
Checklists for member materials

       More than half of managed care plan representatives (68 of 126) and a third of HCFA
       reviewers (28 of 82) said plans do not need to submit member-material checklists to
       HCFA because checklists are solely for the plans’ use. According to the National
       Marketing Guide, if plans create a member piece that requires HCFA’s review and
       approval, then both the member piece and corresponding checklist must be submitted.
       The checklist helps expedite the review because it shows that all the necessary information
       is included in the member piece.

       Given the lack of understanding about the use of checklists, it is not surprising that 50
       percent of plan representatives and 41 percent of HCFA reviewers thought the checklists
       worked less than well or not well at expediting the review process (see Appendix B).



Marketing-material reviews were not tracked consistently
across HCFA regions
       As of November 1998, only 7 of 10 HCFA regional offices were keeping track of their
       marketing-material reviews. However, of the seven regional offices with tracking systems,
       most did not require reviewers to enter data. Moreover, many reviewers who entered data
       did not do so consistently or uniformly. Various types of inconsistencies led to incomplete
       data in the systems. For example, very few reviewers noted when a piece was a
       re-submission. Some reviewers did not enter the received date, the material type, or the
       material’s unique identifier. Without consistent and uniform tracking, reviewers may not,
       for example, be able to determine whether plans have met criteria for the Use and File
       privilege. One Use and File criterion is that 95 percent of a plan's sales materials in a
       calendar quarter are error free. If material type is not tracked consistently and uniformly,
       one cannot accurately determine whether this criterion is met.

       Only two regional offices consistently and uniformly tracked marketing materials for Use
       and File purposes. Two additional regional offices tracked reviews for Use and File
       purposes only if managed care plans requested to be tracked. (One of these two regions
       requires the plan to file a formal application and demonstrate that all criteria have been
       met.) The remaining six regions either did not use their existing tracking system for Use
       and File purposes, or did not track marketing materials consistently for any purpose.

       The HCFA has the potential to track marketing materials nationally in its Managed Care
       Information System. One of the databases in this system was designed in 1997 specifically
       for tracking marketing-material reviews. Some regional offices were using the database
       when we collected data for this study. However, the data was not input consistently or
       uniformly so as to permit valid regional or national reporting.


   Goals of National Marketing Guide           15                                     OEI-03-98-00270
       Tracking has the potential to help HCFA identify (1) the number and type of marketing
       materials submitted, (2) material approval rates, (3) review time-frames, (4) material
       re-submission rates, and (5) plan eligibility for the Use and File privilege. Tracking can
       help regions and central office determine whether the review process is becoming more
       efficient. It can also help identify managed care plans with a history of having to re-
       submit material. Since tracking was done inconsistently and data sent to us from most
       regions was incomplete, we could not analyze the data to identify national statistics. Nor
       could we use it to determine whether certain goals of the National Marketing Guide were
       met (e.g., reduce the number of material re-submissions).



Both HCFA reviewers and managed care plan
representatives felt improvements are needed
       Sixty-three percent of managed care plan representatives (77 of 123) and 76 percent of
       HCFA reviewers (60 of 79) felt the National Marketing Guide needs improvement.
       Below are summaries of respondent comments wherein they described problems and made
       suggestions regarding the National Marketing Guide and its operational elements.

Marketing guidelines need more consistent interpretation

       Managed care plan representatives and HCFA reviewers who wrote comments repeatedly
       raised the issue of inconsistent interpretation of guidelines—whether the topic at hand was
       the lead regional office concept, model member materials, the language chart, or the
       National Marketing Guide as a whole. Some HCFA reviewers said the solution to
       inconsistency is to standardize materials and make their use mandatory. One of our survey
       questions asked respondents if they favored that approach with certain materials, e.g.,
       disenrollment letters. Ninety-five percent of HCFA reviewers (82 of 86) and 54 percent of
       the managed care plan representatives (70 of 130) favored that approach.

       Some respondents wrote that HCFA and plan staffs needed training on how to use the
       National Marketing Guide. More specific comments were that organized training for
       HCFA staff is weak and inconsistent, and training is needed for new employees and to
       address the new Medicare + Choice program.

National Marketing Guide needs timely updates and expansion

       Both respondent groups said timely updates of the National Marketing Guide are needed
       to reflect current market conditions and the new Medicare + Choice program. They also
       commented that parts of the National Marketing Guide are vague, incomplete, or hard to
       use. They wanted policy clarifications, more wording choices in the language chart, and
       more types of model materials and checklists. They felt the layout and writing style should


   Goals of National Marketing Guide           16                                    OEI-03-98-00270
       be improved to make it easier to use, and updates should be made with replacement pages
       instead of operational policy letters.

       A relatively small number of plan representatives compared to HCFA reviewers thought
       the "Must Use/Can't Use/Can Use" language chart should be improved. But their
       concerns were similar. A specific recommendation was to expand the chart to include
       more concepts, examples of violations, and suggested/required language. Respondents
       also recommended making the chart easier to use and updating it to include Medicare +
       Choice terminology.

Model materials need to be more “beneficiary sensitive,” and more types of
models are needed

       Respondents from both groups commented that current model materials are not
       "beneficiary sensitive." They described models as “cold, technical, complex, wordy, and
       confusing.” They felt models should be written at a more appropriate reading level, and
       terms should have the same definitions across all models.

       Respondents also wanted more types of models. There were recommendations for model
       member handbooks, enrollment forms, summaries of benefits, and point-of-service
       options. Another suggestion was to have more than one model per topic to allow for plan
       variations.

Several operational elements need clarification

       Both HCFA reviewers and plan representatives believed that the lead regional office,
       checklist for member material, and Use and File information in the National Marketing
       Guide needs clarification.

       Some HCFA reviewers had concerns regarding responsibility, authority, and coordination
       between the lead regions and other regions where cross-regional materials are used.
       Numerous managed care plan representatives also wrote comments on this subject. They
       agreed with reviewers that lead and local regional roles need clarification. Some also said
       that because materials with varying local information have to be reviewed by both the lead
       and local regional offices, the review process has become cumbersome and too time
       consuming.

       Some plan representatives reiterated they did not understand how to use checklists
       contained in the National Marketing Guide. Some complained that HCFA reviewers
       require language in member materials that is not on checklists. However, one reviewer
       said checklists do not always contain all the information that is required. Reviewers
       wanted checklists to contain more details, include all pieces of information that plans are
       required to have in their materials, and be available for more types of materials.


   Goals of National Marketing Guide            17                                     OEI-03-98-00270
       Both managed care plan representatives and HCFA reviewers commented on the lack of
       understanding about the Use and File System. A few managed care plan representatives
       stated they need technical assistance or “feedback” from their HCFA regional office.
       Some respondents reported that the criteria for the system should be changed or
       strengthened. Others felt that while the concept is good the system is too cumbersome to
       implement and track. Several respondents believed there should be national standards and
       procedures for the system, including a mandatory spot check of materials distributed under
       the Use and File privilege and a periodic review of those materials to ensure that plans can
       retain the Use and File privilege.

Product Consistency Team needs better administration

       With regard to the Product Consistency Team, the HCFA reviewers said they wanted
       better dissemination of the team's decisions, strengthening of the team's authority, and
       improvement in the team's management.




   Goals of National Marketing Guide            18                                     OEI-03-98-00270
                      RECOMMENDATIONS

    Our findings from this report and our review of marketing materials for a companion
    report, Medicare Managed Care: 1998 Marketing Materials (OEI-03-98-0071), provide
    evidence that the Medicare Managed Care National Marketing Guide, while improving
    some aspects of the marketing-material review process, was not very successful at meeting
    its most important goal. That goal is to provide Medicare beneficiaries with accurate and
    consumer friendly marketing materials. Inaccurate and confusing materials may affect
    beneficiaries’ ability to make informed health-care choices.

    We recommend that HCFA:

  <	 update the National Marketing Guide. The National Marketing Guide should further
     clarify which information is specifically prohibited or required in marketing materials.
     The National Marketing Guide should provide model materials that are accurate and
     easy to read. It should clarify policy and operational instructions regarding the lead and
     local regional office responsibilities, the Use and File System (which allows plans to
     distribute sales material without prior approval), and the health plans’ use of checklists
     for member materials. It should also ensure that checklists for member materials contain
     all the required information.

  <	 standardize and mandate use of member materials. The HCFA should work toward
     standardizing as many types of member materials as possible. Managed care plans
     should be required to use these materials when communicating with their enrolled
     Medicare beneficiaries.

  <	 develop standard review instruments. These review instruments should be used by
     HCFA staff in determining if marketing materials (both pre-enrollment and member)
     contain all required information and do not contain prohibited information.

  <	 establish a quality control system. The HCFA should periodically review a nationwide
     sample of previously approved marketing materials (both pre-enrollment and member) to
     determine if they meet Federal marketing guidelines.

  < track marketing-material reviews consistently and uniformly across all regions.

  <	 conduct meetings to review Federal marketing requirements with managed care
     plans that continually submit materials not in compliance with the requirements.

  <	 provide training on the use of the National Marketing Guide for HCFA reviewers
     and managed care plans.


Goals of National Marketing Guide           19                                     OEI-03-98-00270
AGENCY COMMENTS

    The Health Care Financing Administration (HCFA) reviewed this report and the
    companion report on 1998 marketing materials and concurred with our recommendations.
    We summarized the agency’s comments below, however, the full comments are in
    Appendix C.

   <	 update the National Marketing Guide. The agency is updating the National Marketing
      Guide, including checklists and model letters. They are also clarifying what is allowed
      and prohibited in marketing materials. As they believe the Use and File System is an
      important tool, they plan to develop materials to promote a better understanding of its
      operation.

   <	 standardize and mandate use of member materials. Work toward standardizing
      certain materials has already begun. As of contract year 2000, health plans contracting
      with HCFA must use a standardized Summary of Benefits. In the future, beneficiary
      notifications such as the Evidence of Coverage will be standardized, and their mandatory
      use will be phased in.

   <	 develop standard review instruments. The agency’s goal is to have a new and
      comprehensive data collection instrument, called the Plan Benefit Package, fully
      implemented in contract year 2001. This instrument will have multiple uses, including a
      standardized way to collect descriptions of benefits from health plans. The instrument can
      then be used to review health plan marketing materials. In the meantime, a modified
      version of a prior data collection instrument will be used. In addition, the Product
      Consistency Team, comprised of representatives from all ten HCFA regional offices, will
      meet monthly. Through ongoing dialogue, the team is expected to uncover and correct
      any inconsistencies in operational or policy interpretations of standardized materials.

   <	 establish a quality control system. The HCFA has established procedures for verifying
      that all final versions of beneficiary notices are the same as the versions HCFA approved.
      They also plan to review a sample of actual printed marketing materials from a random
      sample of health care organizations. The agency has also established a quality control
      system in their pilot study of the effectiveness of contracting the marketing material
      review to a single national contractor. Moreover, the Product Consistency Team will be
      critical to overall quality control efforts.

   <	 track marketing-material reviews consistently and uniformly across all regions. The
      HCFA regional offices will be required to track receipt and approval of all marketing
      materials when the new Health Plan Management System becomes operational in 2000.
      The Managed Care Information System, which is currently used by a number of the
      regional offices, will become part of the new system.



  Goals of National Marketing Guide          20                                     OEI-03-98-00270
   <	 conduct meetings to review Federal marketing requirements with managed care
      plans that continually submit materials not in compliance with the requirements.
      The HCFA is in the process of updating a contractor performance monitoring protocol.
      The revised protocol will require HCFA reviewers who find a pattern of noncompliant
      marketing submissions to take action, including meeting with managed care plans. As the
      agency continues to review its marketing material review program, it will determine
      additional steps that need to be taken, including sanctioning.

   <	 provide training on the use of the National Marketing Guide for HCFA reviewers
      and managed care plans. The HCFA currently includes a marketing session in their
      annual training program for reviewers. They plan to expand the program to address the
      needs of contracting health plans. In addition, they expect Product Consistency Team
      meetings will promote better understanding of the National Marketing Guide.


OIG RESPONSE

    We appreciate the comprehensiveness of HCFA’s comments. We believe the agency’s
    stated efforts can result in comparable and understandable materials which beneficiaries
    need to make informed health-care choices. We are hopeful that the update of the National
    Marketing Guide will include clarification of lead and local regional office responsibilities,
    and clarification as to whether health plans must submit checklists along with the member
    materials they submit for HCFA’s review. These two elements of the guidelines were not
    specifically mentioned in the agency comments regarding various elements of the guidelines
    that would be updated.

    We have one other concern regarding the Product Consistency Team. The agency states
    they will be relying on the team to play a critical role in quality control, to uncover and
    correct inconsistencies in operational or policy interpretations of standardized materials,
    and to update the National Marketing Guide as needed. The past team was not fully
    effective in these areas, and we are hopeful that the new team has the tools and authority
    needed to accomplish these important objectives.




  Goals of National Marketing Guide          21                                      OEI-03-98-00270
                                                                APPENDIX A


            OPINIONS OF PLAN REPRESENTATIVES:

           ESTIMATES AND CONFIDENCE INTERVALS




  As mentioned in this report’s introduction, we surveyed a sample of 150 risk-based
  managed care plans out of a total of 346. Eighty-seven percent (131 of 150) responded.
  In our findings section, we cite the percentage of plans having certain opinions. The
  precision of our estimates about these opinions, based on a 95 percent confidence level, are
  shown in the tables of this appendix. The calculations were computed using standard
  statistical formulas for a simple random sample. The report pages containing the findings
  are noted in parentheses after the table title.




Goals of National Marketing Guide          22                                     OEI-03-98-00270
                                                                           APPENDIX A

Table 1. 	Plan representative opinions of how well operational elements worked toward
          Goal 1 - “Expedite the review process” (pp. 11 - 12 )
                                                                        Percentage of   95% Confidence
                 Operational Elements                       Opinions      Plan Reps        Interval
                                                        Very well            3.10           ±2.26
                                                        Well                28.68           ±5.90
National Marketing Guide as a whole
                                                        Somewhat well       53.49           ±6.50
                                                        Not well            10.08           ±3.93
                                                        Don’t know           4.65           ±2.75
                                                        Very well           17.19           ±4.94
                                                        Well                17.97           ±5.03
Lead regional offices
                                                        Somewhat well       16.41           ±4.85
                                                        Not well             6.25           ±3.17
                                                        Don’t know          42.19           ±6.46
                                                        Very well            6.20           ±3.14
                                                        Well                30.23           ±5.99
Model member material
                                                        Somewhat well       42.64           ±6.45
                                                        Not well            13.95           ±4.52
                                                        Don’t know           6.98           ±3.32
                                                        Very well           10.08           ±3.93
                                                        Well                16.28           ±4.81
Checklists for member material
                                                        Somewhat well       37.98           ±6.33
                                                        Not well            11.63           ±4.18
                                                        Don’t know          24.03           ±5.57
                                                        Very well           17.05           ±4.90
                                                        Well                43.41           ±6.46
Language chart
                                                        Somewhat well       24.03           ±5.57
                                                        Not well            10.85           ±4.06
                                                        Don’t know           4.65           ±2.75
                                                        Very well            8.66           ±3.70
                                                        Well                 4.72           ±2.79
Use and File System
                                                        Somewhat well        5.51           ±3.00
                                                        Not well             7.09           ±3.37
                                                        Don’t know          74.02           ±5.76
                                                        Very well            0.78           ±1.14
                                                        Well                10.08           ±3.93
Product Consistency Team
                                                        Somewhat well       13.18           ±4.41
                                                        Not well            12.40           ±4.30
                                                     Don’t know           63.57             ±6.27

     Goals of National Marketing Guide              23                                       OEI-03-98-00270
                                                                          APPENDIX A

Table 2.Plan representative opinions of how well operational elements worked toward Goal 2 - “Reduce re-
        submissions of marketing material (pp. 11 - 12)

                                                                      Percentage of   95% Confidence
                 Operational Elements                   Opinions       Plan Reps         Interval
                                                     Very well             6.15           ±3.12
                                                     Well                 33.08           ±6.11
National Marketing Guide as a whole
                                                     Somewhat well        45.38           ±6.47
                                                     Not well             12.31           ±4.27
                                                     Don’t know            3.08           ±2.24
                                                     Very well             5.47           ±2.98
                                                     Well                 19.53           ±5.19
Lead regional offices
                                                     Somewhat well        24.22           ±5.61
                                                     Not well              5.47           ±2.98
                                                     Don’t know           45.31           ±6.52
                                                     Very well            10.77           ±4.03
                                                     Well                 30.00           ±5.95
Model member material
                                                     Somewhat well        38.46           ±6.32
                                                     Not well             14.62           ±4.59
                                                     Don’t know            6.15           ±3.12
                                                     Very well             5.38           ±2.93
                                                     Well                 26.92           ±5.76
Checklists for member material
                                                     Somewhat well        43.08           ±6.43
                                                     Not well              6.92           ±3.30
                                                     Don’t know           17.69           ±4.96
                                                     Very well            16.15           ±4.78
                                                     Well                 50.00           ±6.49
Language chart
                                                     Somewhat well        27.69           ±5.81
                                                     Not well              4.62           ±2.73
                                                     Don’t know            1.54           ±1.60
                                                     Very well             9.30           ±3.79
                                                     Well                  3.10           ±2.26
Use and File System
                                                     Somewhat well         6.20           ±3.14
                                                     Not well              6.20           ±3.14
                                                     Don’t know           75.19           ±5.63
                                                     Very well             1.54           ±1.60
                                                     Well                  4.62           ±2.73
Product Consistency Team
                                                     Somewhat well         6.15           ±3.12
                                                     Not well             16.15           ±4.78
                                                     Don’t know           71.54             ±5.86

     Goals of National Marketing Guide              24                                       OEI-03-98-00270
                                                                          APPENDIX A

Table 3.Plan representative opinions of how well operational elements worked toward Goal 3 - “Ensure
        uniform review across the nation (pp. 11 - 12)

                                                                     Percentage of    95% Confidence
                 Operational Elements                   Opinions      Plan Reps          Interval
                                                     Very well            3.08            ±2.24
                                                     Well                18.46            ±5.04
National Marketing Guide as a whole
                                                     Somewhat well       26.92            ±5.76
                                                     Not well            17.69            ±4.96
                                                     Don’t know          33.85            ±6.15
                                                     Very well           15.63            ±4.75
                                                     Well                 8.59            ±3.67
Lead regional offices
                                                     Somewhat well       25.00            ±5.67
                                                     Not well             3.13            ±2.28
                                                     Don’t know          47.66            ±6.54
                                                     Very well            4.62            ±2.73
                                                     Well                16.92            ±4.87
Model member material
                                                     Somewhat well       34.62            ±6.18
                                                     Not well             6.92            ±3.30
                                                     Don’t know          36.92            ±6.27
                                                     Very well            4.62            ±2.73
                                                     Well                13.08            ±4.38
Checklists for member material
                                                     Somewhat well       29.23            ±5.91
                                                     Not well             8.46            ±3.61
                                                     Don’t know          44.62            ±6.46
                                                     Very well            8.46            ±3.61
                                                     Well                23.08            ±5.47
Language chart
                                                     Somewhat well       26.92            ±5.76
                                                     Not well             6.92            ±3.30
                                                     Don’t know          34.62            ±6.18
                                                     Very well            6.98            ±3.32
                                                     Well                 3.10            ±2.26
Use and File System
                                                     Somewhat well        5.43            ±2.95
                                                     Not well             5.43            ±2.95
                                                     Don’t know          79.07            ±5.30
                                                     Very well            1.54            ±1.60
                                                     Well                 2.31            ±1.95
Product Consistency Team
                                                     Somewhat well        6.15            ±3.12
                                                     Not well            13.85            ±4.49
                                                     Don’t know          76.15              ±5.53

     Goals of National Marketing Guide             25                                        OEI-03-98-00270
                                                                          APPENDIX A

Table 4.Plan representative opinions of how well operational elements worked toward Goal 4 - “Provide
        Medicare beneficiaries with useful information (pp. 11 - 12)
                                                                      Percentage of    95% Confidence
                 Operational Elements                   Opinions       Plan Reps          Interval
                                                     Very well             5.38            ±2.93
                                                     Well                 19.23            ±5.12
National Marketing Guide as a whole
                                                     Somewhat well        40.00            ±6.36
                                                     Not well             18.46            ±5.04
                                                     Don’t know           16.92            ±4.87
                                                     Very well             2.33            ±1.97
                                                     Well                 12.40            ±4.30
Lead regional offices
                                                     Somewhat well        24.81            ±5.63
                                                     Not well              6.98            ±3.32
                                                     Don’t know           53.49            ±6.50
                                                     Very well             6.11            ±3.10
                                                     Well                 12.98            ±4.35
Model member material
                                                     Somewhat well        52.67            ±6.46
                                                     Not well             12.98            ±4.35
                                                     Don’t know           15.27            ±4.65
                                                     Very well             4.62            ±2.73
                                                     Well                 15.38            ±4.69
Checklists for member material
                                                     Somewhat well        38.46            ±6.32
                                                     Not well              8.46            ±3.61
                                                     Don’t know           33.08            ±6.11
                                                     Very well            12.31            ±4.27
                                                     Well                 30.00            ±5.95
Language chart
                                                     Somewhat well        32.31            ±6.07
                                                     Not well              9.23            ±3.76
                                                     Don’t know           16.15            ±4.78
                                                     Very well             2.33            ±1.97
                                                     Well                  6.98            ±3.32
Use and File System
                                                     Somewhat well         9.30            ±3.79
                                                     Not well              3.88            ±2.52
                                                     Don’t know           77.52            ±5.44
                                                     Very well             0.77            ±1.13
                                                     Well                  4.62            ±2.73
Product Consistency Team
                                                     Somewhat well        12.31            ±4.27
                                                     Not well             12.31            ±4.27
                                                     Don’t know           70.00             ±5.95


     Goals of National Marketing Guide              26                                       OEI-03-98-00270
                                                                             APPENDIX A

Table 5. Percentage of plans that “Strongly agreed” with positive statements of impact (p. 13)

                                                                                           95% Confidence
                 Early Impact of National Marketing Guide                  Percentage*        Interval
Marketing guidelines were clearer.                                             11.81             ±4.24
Lead region concept improved review process for chain organizations.           22.40             ±5.52
Creating marketing material was easier.                                        18.11             ±5.06
Submitting marketing materials was easier.                                     11.72             ±4.21
HCFA reviewed marketing material in shorter time frames.                       17.32             ±4.97
HCFA comments on marketing material were more objective.                       5.51              ±3.00
HCFA reviewers were more consistent in interpreting guidelines.                11.72             ±4.21
HCFA reviewers were more consistent in language they allowed.                  9.38              ±3.82
HCFA reviewers were more consistent in language they did not allow.            9.38              ±3.82
Final marketing material contained more accurate information.                  10.32             ±4.01
Final marketing material was more consumer friendly.                           3.97              ±2.58
Final marketing material was more likely to help Medicare beneficiaries
make informed health-care choices.                                             3.94              ±2.56
* Plans that answered Strongly agree



Table 6. Percentage of plans that “Somewhat agreed” with positive statements of impact (p. 13)

                                                                                           95% Confidence
                 Early Impact of National Marketing Guide                  Percentage*        Interval
Marketing guidelines were clearer.                                             69.29             ±6.06
Lead region concept improved review process for chain organizations.           30.40             ±6.09
Creating marketing material was easier.                                        63.78             ±6.32
Submitting marketing materials was easier.                                     57.81             ±6.46
HCFA reviewed marketing material in shorter time frames.                       37.01             ±6.35
HCFA comments on marketing material were more objective.                       39.37             ±6.42
HCFA reviewers were more consistent in interpreting guidelines.                38.28             ±6.36
HCFA reviewers were more consistent in language they allowed.                  47.66             ±6.54
HCFA reviewers were more consistent in language they did not allow.            60.94             ±6.39
Final marketing material contained more accurate information.                  49.21             ±6.60
Final marketing material was more consumer friendly.                           26.19             ±5.80
Final marketing material was more likely to help Medicare beneficiaries
make informed health-care choices.                                             30.71             ±6.06
* Plans that answered Somewhat agree


      Goals of National Marketing Guide                27                                        OEI-03-98-00270
                                                                             APPENDIX A

Table 7. Percentage of plans that “Somewhat disagreed” with positive statements of impact (p. 13)

                                                                                          95% Confidence
                 Early Impact of National Marketing Guide                  Percentage*       Interval
Marketing guidelines were clearer.                                             15.75            ±4.79
Lead region concept improved review process for chain organizations.           7.20             ±3.42
Creating marketing material was easier.                                        13.39            ±4.47
Submitting marketing materials was easier.                                     18.75            ±5.11
HCFA reviewed marketing material in shorter time frames.                       21.26            ±5.38
HCFA comments on marketing material were more objective.                       31.50            ±6.10
HCFA reviewers were more consistent in interpreting guidelines.                21.09            ±5.34
HCFA reviewers were more consistent in language they allowed.                  19.53            ±5.19
HCFA reviewers were more consistent in language they did not allow.            17.97            ±5.03
Final marketing material contained more accurate information.                  30.95            ±6.10
Final marketing material was more consumer friendly.                           41.27            ±6.50
Final marketing material was more likely to help Medicare beneficiaries
make informed health-care choices.                                             39.37            ±6.42
* Plans that answered Somewhat disagree



Table 8. Percentage of plans that “Strongly disagreed” with positive statements of impact (p. 13)

                                                                                          95% Confidence
                 Early Impact of National Marketing Guide                  Percentage*       Interval
Marketing guidelines were clearer.                                             0.00             ±0.00
Lead region concept improved review process for chain organizations.           3.20             ±2.33
Creating marketing material was easier.                                        0.79             ±1.16
Submitting marketing materials was easier.                                     5.47             ±2.98
HCFA reviewed marketing material in shorter time frames.                       15.75            ±4.79
HCFA comments on marketing material were more objective.                       7.87             ±3.54
HCFA reviewers were more consistent in interpreting guidelines.                17.19            ±4.94
HCFA reviewers were more consistent in language they allowed.                  16.41            ±4.85
HCFA reviewers were more consistent in language they did not allow.            5.47             ±2.98
Final marketing material contained more accurate information.                  0.00             ±0.00
Final marketing material was more consumer friendly.                           19.84            ±5.26
Final marketing material was more likely to help Medicare beneficiaries
make informed health-care choices.                                             13.39            ±4.47
* Plans that answered Strongly disagree



      Goals of National Marketing Guide                28                                       OEI-03-98-00270
                                                                               APPENDIX A

Table 9. Percentage of plans that “Didn’t know” about impact (p. 13)

                                                                                            95% Confidence
                 Early Impact of National Marketing Guide                     Percentage*      Interval
Marketing guidelines were clearer.                                                3.15           ±2.30
Lead region concept improved review process for chain organizations.             36.80           ±6.39
Creating marketing material was easier.                                           3.94           ±2.56
Submitting marketing materials was easier.                                        6.25           ±3.17
HCFA reviewed marketing material in shorter time frames.                          8.66           ±3.70
HCFA comments on marketing material were more objective.                         15.75           ±4.79
HCFA reviewers were more consistent in interpreting guidelines.                  11.72           ±4.21
HCFA reviewers were more consistent in language they allowed.                     7.03           ±3.35
HCFA reviewers were more consistent in language they did not allow.               6.25           ±3.17
Final marketing material contained more accurate information.                     9.52           ±3.87
Final marketing material was more consumer friendly.                              8.73           ±3.72
Final marketing material was more likely to help Medicare beneficiaries
make informed health-care choices.                                               12.60           ±4.36
* Plans that answered Don’t know



Table 10. Percentage of plans with Use and File privilege (p. 14)


                                                                                            95% Confidence
                              Survey Statement                              Percentage*        Interval

 We have the Use and File privilege.                                           12.21            ±4.24
* Plans that agreed with statement



Table 11. Percentage of plans aware of criteria for Use and File privilege (p. 14)


 Survey Question: Was your plan aware of the following criteria for                         95% Confidence
                  gaining Use and File privilege?                           Percentage*        Interval
 Plan must be in Medicare program for at least 18 months.                      76.38            ±5.58
 Only sales material is eligible for distribution under Use and File
 privilege.                                                                    69.77            ±5.99
 At least 10 pieces of sales material must be submitted for review within
 calendar quarter.                                                             58.27            ±6.48
 Within calendar quarter, 95 of sales material must be approved.               86.61            ±4.47
*Plans that answered Yes




      Goals of National Marketing Guide                   29                                     OEI-03-98-00270
                                                                               APPENDIX A

Table 12. Percentage of plans’ understanding of tracking for Use and File System (p. 14)

                                                                                           95% Confidence
                              Survey Statement                              Percentage*       Interval

 HCFA tracks our marketing material automatically.                             25.38           ±5.65

 We must ask HCFA to track our marketing material.                             50.00           ±6.49

 We don’t know how plans start getting their marketing material                24.62           ±5.59
 tracked.
* Plans that agreed with statement



Table 13. Percentage of plans that said it is not necessary to submit checklists (p. 15)

                                                                                           95% Confidence
                              Survey Statement                              Percentage*       Interval

 Checklists need not be submitted. They are solely for plan’s use.             53.97           ±6.58
* Plans that agreed with statement



Table 14. Percentage of plans that said National Marketing Guide needs improvement (p. 16)

                                                                                           95% Confidence
                               Survey Question                              Percentage*       Interval
Does the National Marketing Guide as a whole need improvement?                 62.60           ±6.46
* Plans that answered Yes



Table 15. Percentage of plans that favored standardizing material (p. 16)

                                                                                           95% Confidence
                               Survey Question                              Percentage*       Interval
Do you think that in the future plans should use a standardized HCFA
form (its use would be mandatory) for certain material such as enrollment
and disenrollment notices?                                                     53.85           ±6.47
* Plans that answered Yes




      Goals of National Marketing Guide                  30                                     OEI-03-98-00270
                                                                                    APPENDIX B

                           Opinions of How Well Goals of
                          National Marketing Guide Were Met
Table 1. How well guide & operational elements met Goal 1 - “Expedite the review process”

                         Plan Representatives’ Opinions - Goal 1            HCFA Reviewers’ Opinions - Goal 1
     Guide &              Very              Some-      Not     Don’t        Very            Some-     Not       Don’t
    Operational     n     well      Well     what      well    know    n    well    Well     what     well      know
     Elements                                well                                            well
 Marketing Guide
 as a whole      129       3%       29%      54%       10%      5%     85   19%     45%      27%      7%         2%
 Lead regional
 offices           128     17%      18%      16%       6%      42%     85   20%     17%      19%      19%       26%
 Model member
 materials         129     6%       30%      43%       14%      7%     85   26%     33%      31%      7%         4%
 Checklists        129     10%      16%      38%       12%     24%     85   18%     24%      27%      14%       18%
 Language chart    129     17%      43%      24%       11%      5%     85   38%     34%      20%      6%         2%
 Use and File
 System            127     9%        5%       6%       7%      74%     85   14%     15%      14%      13%       44%
 Product Con­
 sistency Team     129     1%       10%      13%       12%     64%     85   19%     22%      24%      11%       25%


Table 2. How well guide & operational elements met Goal 2 - “Reduce marketing material re-submissions”

                         Plan Representatives’s Opinions - Goal 2           HCFA Reviewers’ Opinions - Goal 2
     Guide &              Very              Some-      Not     Don’t        Very            Some-     Not       Don’t
    Operational     n     well      Well     what      well    know    n    well    Well     what     well      know
     Elements                                well                                            well
 Marketing Guide
 as a whole      130       6%       33%      45%       12%      3%     84   14%     30%      32%      14%       10%
 Lead regional
 offices           128     6%       20%      24%       6%      45%     84   13%     12%      23%      18%       35%
 Model member
 materials         130     11%      30%      39%       15%      6%     84   18%     25%      38%      12%        7%
 Checklists        130     5%       27%      43%       7%      18%     84   11%     18%      27%      20%       24%
 Language chart    130     16%      50%      28%       5%       2%     84   18%     26%      33%      14%        8%
 Use and File
 System            129     9%        3%       6%       6%      75%     84   10%     8%       20%      16%       46%
 Product Con­
 sistency Team     130     2%        5%       6%       16%     72%     84   11%     18%      27%      17%       27%



     Goals of National Marketing Guide                    31                                          OEI-03-98-00270
                                                                                    APPENDIX B
Table 3. How well guide & operational elements met Goal 3 - “Ensure uniform review across the nation”

                         Plan Representatives’ Opinions - Goal 3            HCFA Reviewers’ Opinions - Goal 3
     Guide &              Very              Some-     Not      Don’t        Very            Some-     Not       Don’t
    Operational     n     well      Well     what     well     know    n    well    Well     what     well      know
     Elements                                well                                            well
 Marketing Guide
 as a whole      130       3%       19%      27%      18%      34%     84   13%     26%      24%      11%       26%
 Lead regional
 offices           128    16%        9%      25%       3%      48%     84   17%     19%      20%      12%       32%
 Model member
 materials         130     5%       17%      35%       7%      37%     84   12%     24%      27%      11%       26%
 Checklists        130     5%       13%      29%       9%      45%     84   8%      18%      25%      14%       35%
 Language chart    130     9%       23%      27%       7%      35%     84   14%     32%      17%      12%       25%
 Use and File
 System            129     7%        3%      5%        5%      79%     84   6%      13%      12%      13%       56%
 Product Con­
 sistency Team     130     2%        2%      6%       14%      76%     84   12%     20%      17%      13%       38%


Table 4. 	How well guide & operational elements met Goal 4 - “Provide Medicare beneficiaries with useful
          information”

                         Plan Representatives’ Opinions - Goal 4            HCFA Reviewers’ Opinions - Goal 4
     Guide &              Very              Some-     Not      Don’t        Very            Some-     Not       Don’t
    Operational     n     well      Well     what     well     know    n    well    Well     what     well      know
     Elements                                well                                            well
 Marketing Guide
 as a whole      130       5%       19%      40%      19%      17%     84   8%      30%      31%      5%        26%
 Lead regional
 offices           129     2%       12%      25%       7%      54%     84   8%      12%      26%      10%       44%
 Model member
 materials         131     6%       13%      53%      13%      15%     84   8%      26%      36%      6%        24%
 Checklists        130     5%       15%      39%       9%      33%     84   5%      17%      27%      10%       42%
 Language chart    130    12%       30%      32%       9%      16%     84   14%     31%      27%      7%        20%
 Use and File
 System            129     2%        7%      9%        4%      78%     84   6%      10%      13%      8%        63%
 Product Con­                                                                                                   45%
 sistency Team     130     1%        5%      12%      12%      70%     84   12%     17%      20%      6%




     Goals of National Marketing Guide                    32                                          OEI-03-98-00270
                                         APPENDIX C




Goals of National Marketing Guide   33         OEI-03-98-00270
                                         APPENDIX C




Goals of National Marketing Guide   34         OEI-03-98-00270
                                         APPENDIX C




Goals of National Marketing Guide   35         OEI-03-98-00270
                                         APPENDIX C




Goals of National Marketing Guide   36         OEI-03-98-00270
                                         APPENDIX C




Goals of National Marketing Guide   37         OEI-03-98-00270
                                         APPENDIX C




Goals of National Marketing Guide   38         OEI-03-98-00270
                                         APPENDIX C




Goals of National Marketing Guide   39         OEI-03-98-00270
                                         APPENDIX C




Goals of National Marketing Guide   40         OEI-03-98-00270
